Al
Appendix A
19-5197 Docket
General Docket United States Court of Appeals
for District of Columbia Circuit
Court of Appeals Docket #: 19-5197
Docketed: 07/09/2019
Termed: 11/08/2019
2195
Contract
Product
Liability
Nature of Suit:
Xiu Sun, et al v. Donald Trump
Appeal From: United States District Court for the
District of Columbia
Fee Status: Fee Paid
Case Type Information:

1) Civil US
United States

Originating Court Information:
District: 0090-1 : 1:18-cv-02820-RC
Lead: 1:18-cv-02820-RC
Trial Judge: Rudolph Contreras, U.S. District Judge
Date Filed: 11/26/2018
Date NOA Filed:
Date Order/Judgment:
06/28/2019
05/06/2019
Prior Cases:
Current Cases:

None
None

Panel Assignment: Not available

A2
Xiu Jian Sun, The Spiritual Adam
Plaintiff - Appellant
Xiu Jian Sun
Direct: 646-675-0308
[NTC Pro Se]
54-25 153rd Street Second Floor
Flushing, NY 11355
Church of Jesus Christ of Latter-day Saints
Plaintiff - Appellee
v.
Donald J. Trump, President of U.S.A., Mr.
Defendant - Appellee
Patricia King McBride, Esquire,
Assistant U.S. Attorney
Email: patricia.mcbride@usdoj.gov
[COR LD NTC Gvt US Attorney]
U.S. Attorney's Office
(USA) Appellate Division
Firm: 202-252-6829
555 4th Street, NW
Washington, DC 20530
R. Craig Lawrence
Email: craig.lawrence@usdoj.gov
[COR NTC Gvt US Attorney]
U.S. Attorney's Office
(USA) Civil Division
Firm: 202-252-2500
555 4th Street, NW

A3
Washington, DC 20530
Xiu Jian Sun, The Spiritual Adam,
Plaintiff - Appellant
Church of Jesus Christ of Latter-day Saints,
Plaintiff - Appellee
v.
Donald J. Trump, President of U.S.A., Mr.,
Defendant — Appellee
07/09/2019

US CIVIL CASE docketed. [19-5197]
[Entered: 07/09/2019 12:38 PM]

07/09/2019

NOTICE OF
9 pg, 217.04 KB
APPEAL [1796369] seeking review of
a decision by the U.S. District Court
in 1:18-cv02820-RC filed by Xiu Jian
Sun. Appeal assigned USCA Case
Number: 19-5197. [19-5197] [Entered:
07/09/2019 12:38 PM]

07/09/2019 3 pg, 47.5 KB CLERK'S ORDER
[1796375] filed directing party to file
initial submissions: APPELLANT
docketing statement due 08/08/2019.
APPELLANT certificate as to parties
due 08/08/2019. APPELLANT
statement of issues due 08/08/2019.
APPELLANT underlying decision
due 08/08/2019. APPELLANT

A4
deferred appendix statement due
08/08/2019. APPELLANT notice of
08/08/2019.
appearance
due
APPELLANT transcript status report
due 08/08/2019. APPELLANT
procedural motions due 08/08/2019.
APPELLANT dispositive motions due
08/23/2019; directing party to file
initial submissions: APPELLEE
certificate as to parties due 08/08/2019.
APPELLEE entry of appearance due
08/08/2019. APPELLEE procedural
motions due 08/08/2019. APPELLEE
dispositive motions due 08/23/2019,
Failure to respond shall result in
dismissal of the case for lack of
prosecution; The Clerk is directed to
mail this order to appellant by
certified mail, return receipt
requested and by 1st class mail.
[19-5197] [Entered: 07/09/2019 12:48
PM]
07/09/2019

CERTIFIED MAIL and FIRST CLASS
MAIL SENT [1796380] with return
receipt requested [Receipt No.7019
0700 0000 5269 0990] of order
[1796375-2]. Certified Mail Receipt
due 08/08/2019 from Xiu Jian Sun.
[19-5197] [Entered: 07/09/2019

A5
01:01 PM]
08/02/2019

DOCKETING
1 pg, 122.58 KB
STATEMENT [1800898] filed by Xiu
Jian Sun [Service Date: 08/06/2019]
[19-5197] [Entered: 08/06/2019 12:37
PM]

08/02/2019

ENTRY OF
1 pg, 66.89 KB
APPEARANCE [1800901] filed by Xiu
Jian Sun. [19-5197] [Entered:
08/06/2019 12:40 PM]

08/02/2019

TRANSCRIPT
1 pg, 88.76 KB
STATUS REPORT [1800903] filed by
Xiu Jian Sun [Service Date:
08/06/2019]. Status of Transcripts:
Final - No transcripts are needed for
the appeal. [19-5197] [Entered:
08/06/2019 12:42 PM]

08/02/2019 14 pg, 801.2 KB APPELLANT BRIEF
[1800907] filed by Xiu Jian Sun
[Service Date: 07/30/2019 ] Length of
Brief: 1,850 words. [19-5197] [Entered:
08/06/2019 12:57 PM]
08/02/2019 65 pg, 29.62 MB APPENDIX [1800909]
filed by Xiu Jian Sun. [Volumes: 1]
[Service Date: 07/30/2019] [19-5197]

A6
[Entered: 08/06/2019 01:08 PM]
08/08/2019 3 pg, 14.6 KB CERTIFICATE AS TO
PARTIES, RULINGS AND RELATED
CASES [1801289] filed by Donald J.
Trump [Service Date: 08/08/2019]
[19-5197]
(McBride,
Patricia)
[Entered: 08/08/2019 03:41 PM]
08/08/2019

1 pg, 14.1 KB ENTRY OF
APPEARANCE [1801298] filed by
Patricia McBride and co-counsel R.
Craig Lawrence on behalf of Appellee
Donald J. Trump. [19-5197] (McBride,
Patricia) [Entered: 08/08/2019 03:55
PM]

08/30/2019 3 pg, 16.2 KB MOTION [1804405] for
leave to file motion filed by Donald J.
Trump (Service Date: 08/30/2019 by
US Mail) Length Certification: 261
Words. [19-5197] (Lawrence, R.)
[Entered: 08/30/2019 12:39 PM]
08/30/2019 10 pg, 247.69 KB MOTION [1804406]
for summary affirmance (Response to
Motion served by mail due on
09/09/2019) lodged by Donald J.
Trump (Service Date: 08/30/2019 by

A7
US Mail) Length Certification: 779
Words. [195197]--[Edited 08/30/2019
by DJR--MODIFIED EVENT FROM
FILED TO LODGED] (Lawrence, R.)
[Entered: 08/30/2019 12:41 PM]
09/11/2019

CLERK'S ORDER
1 pg, 38.91 KB
[1806128] filed granting motion for
leave to file [1804405-2]; The Clerk is
directed to file motion for summary
affirmance [1804406-2]; directing
response to motion for summary
affirmance [1804406-2] APPELLANT
Response due on 09/26/2019. The
Clerk is directed to send this order to
appellant by certified mail, return
receipt requested and by 1st class
mail. [19-5197] [Entered: 09/11/2019
04:50 PM]

09/11/2019

PER ABOVE ORDER lodged motion
for summary affirmance [1804406-2]
is filed [19-5197] [Entered: 09/11/2019
04:59 PM]

09/11/2019 FIRST CLASS and CERTIFIED MAIL
SENT [1806138] with return receipt
requested [Receipt No.7017 3380 0000
3149 8688] of order [1806128-3].
Certified Mail Receipt due 10/11/2019

A8
from Xiu Jian Sun. [19-5197] [Entered:
09/11/2019 05:16 PM]
10/17/2019 CERTIFIED MAIL RETURNED
[1811381] marked "Return to sender Refused - Unable to forward".
Certified Mail [1806138-2] had been
sent to Party Xiu Jian Sun. [19-5197]
[Entered: 10/18/2019 11:56 AM]
11/08/2019

1 pg, 39.21 KB
CLERK'S ORDER
[1814981] filed considering Clerk
order [1806128-3], dismissing case for
lack of prosecution, withholding
issuance of the mandate. [19-5197]
[Entered: 11/08/2019 11:14 AM]

Clear All
Documents and Docket Summary
X
Documents Only
X
Include Page Numbers
Selected Pages: 0
Selected Size: 0 KB
View Selected
PACER Service Center
Transaction Receipt
DC Circuit (USCA) - 11/14/2019 11:37:23
PACER Login: xiujiansun
Client Code: 4869479
Description: Docket Report (full)
Search Criteria: 19-5197
Billable Pages: 2
Cost: 0.20

B1
Appendix B
USCA Case #19-5197 Document #1796375
Filed: 07/09/2019 Page 1 of 3
United States Court of Appeals FOR THE DISTRICT
OF COLUMBIA CIRCUIT
No. 19-5197
1:18-cv-02820-RC

September Term, 2018
Filed On: July 9, 2019 [1796375]

Xiu Jian Sun, The Spiritual Adam,
Appellant
Church of Jesus Christ of Latter-day Saints, Appellee
v.
Donald J. Trump, President of U.S.A., Mr.,
Appellee
ORDER
The notice of appeal was filed on June 28, 2019,
and docketed in this court on July 9, 2019. It is, on the
court's own motion,
ORDERED that appellant submit the documents
listed below by the dates indicated.
Certificate as to Parties, Rulings, and
Related Cases
Docketing Statement Form
Entry of Appearance Form
Procedural Motions, if
Statement of Intent to Utilize
Deferred Joint Appendix
Statement of Issues to be Raised
Transcript Status Report

August 8, 2019
August 8, 2019
August 8, 2019
August 8, 2019
August 8, 2019
August 8, 2019
August 8, 2019

B2
Underlying Decision from Which
Appeal or Petition Arises
August 8, 2019
Dispositive Motions, if any (Original and 4 copies)
August 23, 2019

United States Court of Appeals FOR THE DISTRICT
OF COLUMBIA CIRCUIT
No. 19-5197

September Term, 2018

A request for appointment of counsel does not
relieve appellant of the obligation to file responses to
any motion filed by appellee or to comply with any
order issued by the court, including a briefing schedule.
Failure by appellant to respond to a dispositive motion
or comply with any order of the court, including this
order, will result in dismissal of the case for lack of
prosecution. See D.C. Cir. Rule 38.
It is FURTHER ORDERED that appellee submit
the documents listed below by the dates indicated.
Certificate as to Parties, Rulings, and
August 8, 2019
Related Cases
Entry of Appearance Form
August 8, 2019
August 8, 2019
Procedural Motions, if any
Dispositive Motions, if any (
August 23, 2019
Original and 4 copies)
It is
FURTHER ORDERED that appellant submit a
transcript status report every 30 days after the filing of
the initial report, until all transcripts have been

B3
received. Within three days of receipt of all
transcripts, appellant is directed to file a Final Status
Report indicating the date the complete transcript was
received. All reports must be served on the parties and
each reporter. It is
FURTHER ORDERED that briefing in this case
be deferred pending further order of the court.
The Clerk is directed to send a copy of this order to
appellant by certified mail, return receipt requested,
and by first class mail.
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Laura M. Chipley
Deputy Clerk

USCA Case #19-5197 Document #1796375
Page 3 of 3
Filed: 07/09/2019
United States Court of Appeals FOR THE DISTRICT
OF COLUMBIA CIRCUIT
No. 19-5197

September Term, 2018

\The following forms and notices are available on the
Court's website:
Attachments for Pro Se Parties Only:
Civil Docketing Statement Form
Entry of Appearance Form
Transcript Status Report Form
Memorandum Concerning Self-Representatio

Cl
Appendix C
USCA Case #19-5197 Document #1800907
Filed: 08/02/2019 Page 4 of 14
STATEMENT OF SUBJECT MATTER AND
APPELLATE JURISDICTION
The Doctrine and Covenants Section 101
Revelation given to Joseph Smith the Prophet, at
Kirtland, Ohio, December 16 and 17, 1833. At this time
the Saints who had gathered in Missouri were
suffering great persecution. Mobs had driven them
from their homes in Jackson County; and some of the
Saints had tried to establish themselves in Van Buren,
Lafayette, and Ray Counties, but persecution followed
them. The main body of the Saints was at that time in
Clay County, Missouri. Threats of death against
individuals of the Church were many. The Saints in
Jackson County had lost household furniture, clothing,
livestock, and other personal property; and many of
their crops had been destroyed.
Now, unto what shall I liken the children of Zion? I
will liken them unto the parable of the woman and the
unjust judge, for men ought always to pray and not to
faint, which saithThere was in a city a judge which feared not God,
neither regarded man.
And there was a widow in that city, and she came
unto him, saying: Avenge me of mine adversary.
And he would not for a while, but afterward he said
within himself: Though I fear not God, nor regard man,
yet because this widow troubleth me I will avenge her,
lest by her continual coming she weary me.
Thus will I liken the children of Zion.
Let them importune at the feet of the judge;

C2
USCA Case #19-5197 Document #1800907
Filed: 08/02/2019 Page 5 of 14
STATEMENT OF THE ISSUES PRESENTED
FOR REVIEW
Jehovah, the Lord god of the host, sent the
messenger answered the defendant President of U.S.A.
MR. Donald John Trump—Cain's words through the
angel and saying, 'Cain, you love Satan more than
love the god of Jehovah'.
In 2010, read The Reverberation of St John the
Divine Chapter 17,
And there came one of the seven angels which the
seven vials, and talked with me, saying unto me, Come
hither; I will shew unto thee the judgment of the great
whore that sitteth upon many waters:
With whom the kings2 of the earth have committed
fornication*(Look! President Donald John Trump Wang Xing Ren & Cain; Obama Barack -King
Herod; George W. Bush; Bill Clinton; George H. W.
Bush; Ronald Reagan; Jimmy Carter; Gerald
Ford; Richard Nixon, and the inhabitants of the
earth have been made drunk with the wine of her
fornication.
So he carried me away in the spirit into the
wilderness: and I saw a woman sit upon a scarlet
coloured beast, full of names of blasphemy, having
seven heads and ten horns.
And the woman was arrayed in purple and scarlet
colour, and decked with gold and precious stones and
pearls, having a golden cup in her hand full of
abominations and filthiness of her fornication:

C3
And upon her forehead was a name written,
MYSTERY, BABYLON THE GREAT, THE MOTHER
OF HARLOTS AND ABOMINATIONS OF THE
EARTH.
And I saw the woman drunken with the blood of the
saints, and with the blood of the martyrs of Jesus: and
when I saw her, I wondered with great admiration.
And the angel said unto me, Wherefore didst thou
marvel? I will tell thee the mystery of the woman, and
of the beast that carrieth her, which bath the seven
heads and ten horns.
The beast that thou sawest was, and is not; and
shall ascend out of the bottomless pit, and go into
perdition: and they that dwell on the earth shall
wonder, whose names were not written in the book of
life from the foundation of the world, when they behold
the beast that was, and is not, and yet is.
And here is the mind which bath wisdom. The
seven heads are seven mountains, on which the woman
sitteth.
And there are seven kings: five are fallen
(Servant in accordance of order: Harold B. Lee,
Spencer W. Kimball, Ezra Taft Benson, Howard
W. Hunter, Gordon B. Hinckley. 1972-2008), and
one is, and the other is not yet come (In the year of
2010, when reading this, Jehovah, -the Lord god of
host sent the messenger said to servant in heart,
"They are like this in their previous life."); and
when he cometh, he must continue a short space. (One
still alive, but on the date of January 2nd, 2018, he
deceased as well)

C4
USCA Case #19-5197 Document #1800907
Filed: 08/02/2019 Page 7 of 14
STATEMENT OF THE CASE
The Lord god Jehovah sent the messenger, said to
spiritual Adam through the angel, 'unjust judge.' (Tiz,
.1A5I-07)
The Lord god of hosts sent messenger through the
angel said to servant: 'Pharisees don't even open the
door'. (Words given on the date of October 5th, 2015, on
ti3T)=F).
the way home from the court. (MO
Jehovah, the Lord god of host, sent the son of god,
(the revived Messiah) from God's temple gave words to
servant, said:' Pharisees not even move a finger of his."
(5
A--11/8M.13T-i.t) .
Jehovah, -the Lord God of host, sent the messenger
through angel said to spiritual Adam: "Secret gang
organization." (1 ,f,;s5) kijo,)

C5
USCA Case #19-5197
Document #1800907
Filed: 08/02/2019
Page 8 of 14
STATEMENT OF THE FACTS
To fulfill the words that prophet once said.
Isaiah Chapter 64
8). But now, 0 Lord, thou art our father; we are the
clay, and thou our potter; and we all are the work of
thy hand.
2 Nephi 9
41). 0 then, my beloved brethren, come unto the Lord,
the Holy One. Remember that his paths are righteous.
Behold, the way for man is narrow, but it lieth in a
straight course before him, and the keeper of the gate
is the Holy One of Israel; and he employeth no servant
there; and there is none other way save it be by the
gate; for he cannot be deceived, for the Lord God is his
name. (Reading to here, Israeli Saint says through
gifted spirit, "They walking backward.")
Alma 34
32). For behold, this life is the time for men to prepare
to meet God; yea, behold the day of this life is the day
for men to perform their labors.
Hebrews 4
12). For the word of God is quick, and powerful, and
sharper than any twoedged sword, piercing even to the
dividing asunder of soul and spirit, and of the joints
and marrow, and is a discerner of the thoughts and
intents of the heart.

C6
13). Neither is there any creature that is not manifest
in his sight: but all things are naked and opened unto
the eyes of him with whom we have to do.
Cain
1.

The Doctrine and Covenants Section 101

And if he heed them not, let them importune at the
feet of the governor;
And if the governor heed them not, let them
importune at the feet of the president;
Satan
Revelation 12
9). And the great dragon was cast out, that old serpent,
called the Devil, and Satan, which deceiveth the whole
world: he was cast out into the earth, and his angels
were cast out with him.
Mosiah 16
3). For they are carnal and devilish, and the devil has
power over them; yea, even that old serpent that did
beguile our first parents, which was the cause of their
fall; which was the cause of all mankind becoming
carnal, sensual, devilish, knowing evil from good,
subjecting themselves to the devil.
Doctrine and Covenants 10
Verily, verily, I say unto you, that Satan has great
hold upon their hearts; he stirreth them up to iniquity
against that which is good;
And their hearts are corrupt, and full of

C7
wickedness and abominations; and they love darkness
rather than light, because their deeds are evil;
therefore they will not ask of me.
4. John 8
Jesus said unto them, If God were your Father, ye
would love me: for I proceeded forth and came from
God; neither came I of myself, but he sent me.
Why do ye not understand my speech? even
because ye cannot hear my word.
Ye are of your father the devil, and the lusts of
your father ye will do. He was a murderer from the
beginning, and abode not in the truth, because there is
no truth in him. When he speaketh a lie, he speaketh
of his own: for he is a liar, and the father of it.

D1
Appendix D
USCA Case #19-5197 Document #1796369
Filed: 07/09/2019 Page 1 of 9
USCA Case #19-5197 Document #1800909
Filed: 08/02/2019 Page 57 of 65
District of Columbia live database
APPEAL, CLOSED,PROSE-NP,TYPE-F
U.S. District Court District of Columbia
(Washington, DC)
CIVIL DOCKET FOR CASE #: 1:18-cv-02820-RC
CHURCH OF JESUS CHRIST OF
LATTER-DAY SAINTS et al
v. TRUMP
Assigned to: Judge Rudolph Contreras
Cases: 1:17-cv-01787-RC, 1:18-cv-00254-ABJ
Cause: 28:1332 Diversity-Product Liability
Date Filed: 11/26/2018
Date Terminated: 05/06/2019
Jury Demand: Plaintiff
Nature of Suit: 195 Contract
Product Liability Jurisdiction: Diversity
Plaintiff
CHURCH OF JESUS CHRIST OF
LATTER-DAY SAINTS
represented by CHURCH OF JESUS CHRIST OF
LATTER-DAY SAINTS PRO SE
Plaintiff
MU JIAN SUN The Spiritual Adam

D2
represented by XIU JIAN SUN
54-25 153rd Street Second Floor
Flushing, NY 11355
(646) 675-0308 PRO SE
v.
Defendant
DONALD J. TRUMP President of U.S.A., Mr.
represented by Patricia K. McBride
U.S. ATTORNEY'S OFFICE FOR
THE DISTRICT OF COLUMBIA
555 Fourth Street, NW
Washington, DC 20530
(202) 252-7123 Fax: (202) 252-2599
Email: patricia.mcbride@usdoj.gov
LEAD ATTORNEY ATTORNEY TO
BE NOTICED
Date Filed # Docket Text
11/26/2018 1 COMPLAINT against DONALD
JOHN TRUMP (Filing fee $ 400,
receipt number 4616095730) with
Jury Demand filed by CHURCH OF
JESUS CHRIST OF LATTER-DAY
SAINTS, XIU JIAN SUN.
(Attachment: # 1 Civil Cover Sheet)
(tth) (Entered: 12/04/2018)
11/26/2018 2 NOTICE OF RELATED CASE by
CHURCH OF JESUS CHRIST OF
LATTER-DAY SAINTS, XIU JIAN
SUN. Case related to Case No.
17cv1787-RC, and 18-254. (tth)
(Entered: 12/04/2018)

D3
12/03/2018

SUMMONS (3) Issued as to DONALD
JOHN TRUMP, U.S. Attorney and
U.S. Attorney General. (tth) (Entered:
12/04/2018)

12/13/2018 3 AFFIDAVITS OF MAILING. (tth)
(Entered: 12/17/2018)
02/19/2019 4 Unopposed MOTION for Extension of
Time to by DONALD J. TRUMP
(Attachments: # 1 Text of Proposed
Order)(McBride, Patricia) (Entered:
02/19/2019)
02/19/2019

MINUTE ORDER granting 4 Motion
for Extension of Time: it is hereby
ORDERED that Defendant shall file
his response to the Complaint on or
before March 20, 2019. SO ORDERED.
Signed by Judge Rudolph Contreras
on
2/19/19.
(lcrcl)
(Entered:
02/19/2019)

03/07/2019

Set/Reset Deadlines: Answer due by
3/20/2019. (tj) (Entered: 03/07/2019)

03/20/2019 5 MOTION to Dismiss Plaintiff's
Complaint by DONALD J. TRUMP
(Attachments: # 1 Exhibit, # 2 Text of
Proposed Order) (McBride, Patricia)
(Entered: 03/20/2019)
03/20/2019 6 FOX/NEAL ORDER advising Plaintiff
to respond by April 19, 2019 to 5
Defendant's motion to dismiss or the
Court may deem the matter conceded.

D4
See document for details. Signed by
Judge Rudolph Contreras on 3/20/19.
(lcrcl) (Entered: 03/20/2019)
03/22/2019

Set/Reset Deadlines: Responses due
by 4/19/2019 (tj)(Entered: 03/22/2019)

04/15/2019

7 Civil Statement from CHURCH OF
JESUS CHRIST OF LATTER-DAY
SAINTS, XIU JIAN SUN. "LET
THIS BE FILED" by Judge Rudolph
Contreras on 4/15/2019. (tth)
(Entered: 04/15/2019)

05/06/2019

8 MEMORANDUM OPINION AND
ORDER granting 5 Motion to
Dismiss: See document for details.
Signed by Judge Rudolph Contreras
on 5/6/19. (lcrcl) Modified event title
on 6/7/2019 (znmw). (Entered:
05/06/2019)

06/28/2019

9

07/01/2019

NOTICE OF APPEAL as to 8 Order
on Motion to Dismiss by XIU JIAN
SUN. Filing fee $ 505, receipt
number 4616099219. Fee Status: Fee
Paid. Parties have been notified.
(jf) (Entered: 07/01/2019)

10 Transmission of the Notice of Appeal,
Order Appealed (Memorandum
Opinion), and Docket Sheet to US
Court of Appeals. The Court of
Appeals fee was paid this date re 9
Notice of Appeal. (jf) (Entered:
07/01/2019)

D5
Case 1:18-cv-02820-RC Document 4
Filed 02/19/19 Page 1 of 3
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
CHURCH OF JESUS CHRIST OF
LATTER-DAY SAINTS, et al., pro se
Plaintiffs,
Civil Action No.
v.
18-2820 (RC)
DONALD JOHN TRUMP
Defendant.
MOTION FOR ENLARGEMENT OF TIME
Pursuant to Fed. R. Civ. P. 6(b)(1)(A), Defendant
Donald John Trump ("Defendant"), respectfully moves
for an enlargement of time up to and including
Thursday, March 21, 2019, to file its response to
Plaintiffs Complaint. The response is currently due on
February 19, 2019. In support of this motion,
Defendant states as follows:
Undersigned counsel was out of the office due to
illness from February 13, 2019, through February 15,
2019. She returned to the office today, February 19,
2019. As a result of her illness, she was unable to
confer with agency counsel and complete an
appropriate response to the Complaint, and therefore
needs additional time within which to prepare a
response.
This request is not made for the purpose of delay.

D6
3. Pursuant to Local Civil Rule 7(m), pro se
Plaintiffs have been notified of this motion and do not
oppose Defendant's request.
Wherefore Defendant respectfully requests the
Court grant this motion.
Respectfully submitted,
/s/ Patricia K. McBride
PATRICIA K. MCBRIDE, PA Bar # 54561
Assistant United States Attorney
Civil Division
555 4th Street, NW, Room E-4808
Washington, DC 20530
Tel: 202.252.7123
Fax: 202.252.2599
Email: patricia.mcbride@usdoj.gov
Attorney for Defendant

Case 1:18-cv-02820-RC Document 4
Filed 02/19/19 Page 3 of 3
CERTIFICATE OF SERVICE
I certify that I caused a copy of the foregoing
Motion to Enlarge Time to be, served, on this 19th day
of February 2019, by first class mail to
Church of Jesus Christ of Latter-Day Saints
54-25 153rd St

D7
Flushing, NY 11355
Pro Se Plaintiff
Respectfully submitted,

PATRICIA K. MCBRIDE
Assistant United States Attorney

Case 1:18-cv-02820-RC Document 4-1
Filed 02/19/19 Page 1 of 1
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
CHURCH OF JESUS CHRIST OF
LATTER-DAY SAINTS, et al., pro se
Civil Action No.
Plaintiffs,
18-2820 (RC)
v.
DONALD JOHN TRUMP
Defendant.
PROPSED ORDER
Upon consideration of Defendant's Motion for
Enlargement of Time to file a response to Plaintiffs'
Complaint, it is hereby ORDERED that Defendant's
response shall be filed on March 20, 2019.
SO ORDERED.
Date:
United States District Judge

D8
Case 1:18-cv-02820-RC Document 5
Filed 03/20/19 Page 1 of 6
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
THE CHURCH OF JESUS CHRIST
OF LATTER-DAY SAINTS, et al.,
Plaintiff,
Civil Action No.
v.
18-2820 (RC)
DONALD JOHN TRUMP,
Defendant.
DEFENDANTS' MOTION TO DISMISS
PLAINTIFF'S COMPLAINT
By and through undersigned counsel, Defendant in
the above captioned action respectfully move to dismiss
this action on the grounds that the Court lacks subject
matter jurisdiction and Plaintiff has failed to state any
claim upon which relief may be granted. Fed. R.
Civ.P. 12(b)(1), 12(b)(6). Defendant respectfully refer
the Court to the attached memorandum of points and
authorities. A proposed order is also attached.
Dated: March 20, 2019
Respectfully submitted,
JESSIE K. LIU, D.C. BAR # 472845
United States Attorney for the District of Columbia
DANIEL F. VAN HORN, D.C. BAR # 924092
Chief, Civil Division
By: /s/ Patricia K. McBride
PATRICIA KING MCBRIDE
Assistant United States Attorney
555 4th St., N.W., Washington, D.C. 20530
(202) 252-7123, patricia.mcbride@usdoj.gov
Counsel for Defendant

D9
Case 1:18-cv-02820-RC Document 5
Filed 03/20/19 Page 3 of 6
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
THE CHURCH OF JESUS CHRIST
OF LATTER-DAY SAINTS, et al.,
Plaintiff,
Civil Action No.
v.
18-2820 (RC)
DONALD JOHN TRUMP,
Defendant.

MEMORANDUM OF POINTS AND
AUTHORITIES IN SUPPORT OF DEFENDANT'S
MOTION TO DISMISS PLAINTIFF'S
COMPLAINT
The docket of this case lists as Plaintiff, Xiu Jian
Sun Spiritual Adam, who claims to be operating as the
representative of the Church of Jesus Christ of Latter
Day Saints. ECF No. 1 at 1. It also lists, as Defendant,
Donald John Trump-Cain. As explained below, this
case should be dismissed pursuant to Federal Rule of
Civil Procedure ("Rule") 12(b)(1) (lack of subject matter
jurisdiction) and Rule 12(b)(6) (failure to state a claim
upon which relief can be granted).
"To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
`state a claim to relief that is plausible on its face."'
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (emphasis
added). Furthermore, a complaint may be dismissed

D10
on jurisdictional grounds when it "is 'patently
insubstantial,' presenting no federal question suitable
for decision." Tooley v. Napolitano, 586 F.3d 1006, 1009
(D.C. Cir. 2009) (quoting Best v. Kelly, 39 F.3d 328,
330 (D.C. Cir. 1994)). In addition, the "federal courts
are without power to entertain claims otherwise within
their jurisdiction if they are 'so attenuated and
unsubstantial as to be absolutely devoid of merit."'
Hagans v. Lavine, 415 U.S. 528, 536-7 (1974) (quoting
Newburyport Water Co. v. Newburyport, 193 U.S. 561,
579 (1904)).
Plaintiffs Complaint is a jumble of statements that
cannot even rightly be considered allegations. See, e.g.,
Compl.at 1 ("Jehovah, the Lord god of host sent the
messenger said to servant (Plaintiff) through the angel
said to: "Cain."). This Court lacks subject matter
jurisdiction over Plaintiffs incoherent filing, which is a
complaint in name only. See Best v. Kelly, 39 F.3d
328, 330 (D.C. Cir. 1994) (stating that there is no
federal jurisdiction when a complaint is based on
allegations rooted in "bizarre conspiracy theories");
Neitzke v. Williams, 490 U.S. 319, 327 n.6 (1989)
(recognizing that courts lack jurisdiction to consider
claims that are "so attenuated and unsubstantial as to
be absolutely devoid of merit") (citation omitted).
This Court does not have subject matter jurisdiction
over these claims that neither invoke any federal law
nor present factual issues that can be resolved in
federal court. As a prefatory matter, plaintiff has filed
at least eight similar complaints in other state and
federal courts. See, e.g., Xiu Jian Sun v. N.Y. Office of
Att'y Gen., No. 17-CV-5916, 2017 WL 4740811, at
*1-*3 (E.D.N.Y. Oct. 19, 2017) (dismissing complaint as

Dll
frivolous and listing other cases filed by plaintiff in
New York state and federal court); See also Memo. Op.
at ¶ 1, attached hereto as Exhibit A.
Finally, Plaintiff claims to represent LDS. However, an
artificial entity, whether a corporation or some other
non-natural person, can only act in court through
agents; it cannot appear pro se. Rowland v. Cal. Men's
Colony, 506 U.S. 194, 202 (1993). There is no attorney
representing LDS, and this party should therefore be
dismissed as a plaintiff.
March 20, 2019
Respectfully submitted,
JESSIE K. LIU, D.C. BAR # 472845
United States Attorney for
the District of Columbia
DANIEL F. VAN HORN, D.C. BAR # 924092
Chief, Civil Division
By: /s/ Patricia King McBride
PATRICIA KING MCBRIDE
Assistant United States Attorney
555 4th St., N.W.
Washington, D.C. 20530
(202) 252-7123
patricia.mcbride@usdoj.gov
Counsel for Defendant

D12
Case 1:18-cv-02820-RC Document 5
Filed 03/20/19 Page 6 of 6
CERTIFICATE OF SERVICE
I hereby certify that I caused a copy of Defendant's
Motion to Dismiss, supporting Memorandum of Points
and Authorities, and proposed order, to be served upon
plaintiff by first class mail, postage prepaid to:
XIU JIAN SUN
#54-25 153rd Street-160
Flushing, New York 11355
P.O. BOX 800
BRADFORD, PA 16701
on this 20th day of March, 2019.
By: /s/ Patricia King McBride
PATRICIA KING MCBRIDE
Assistant United States Attorney

Case 1:18-cv-02820-RC Document 5-1
Filed 03/20/19 Page 1 of 6
EXHIBIT A

D13
Case 1:18-cv-02820-RC Document 5-1
Filed 03/20/19 Page 1 of 6
Case 1:17-cv-01861-JDB Document 9
Filed 09/24/18 Page 1 of 5
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
XIU JIAN SUN, Spiritual Adam,
Plaintiff,
v.
SECRET GANG ORGANIZATION:
OBAMA BARACK-DOG, et al.,
Defendants.

Civil Action No.
17-1861 (JDB)

MEMORANDUM OPINION
Plaintiff Xiu Jian Sun, identifying as "the spiritual
Adam" and as a representative of the Church of Jesus
Christ of Latter-Day Saints, filed this pro se action on
September 12, 2017. Listed as defendants are "Secret
gang organization: OBAMA-BARACK-Dog," and
various federal employees and judges. Plaintiff has
paid the statutory filing fee to commence this action.
Defendants respond that this Court lacks jurisdiction
and that nothing in plaintiffs complaint states a claim
upon which relief can be granted. For the following
reasons, [6] defendants' motion to dismiss will be
granted.
BACKGROUND
As a prefatory matter, the Court notes that plaintiff
has filed at least eight similar complaints in other

D14
state and federal courts. See, e.g., Xiu Jian Sun v. N.Y.
Office of Att'y Gen., No. 17-CV-5916, 2017 WL 4740811,
at *1—*3 (E.D.N.Y. Oct. 19, 2017) (dismissing
complaint as frivolous and listing other cases filed by
plaintiff in New York state and federal courts); Xiu
Jian Sun v. United States, 130 Fed. Cl. 569, 570 (2016)
(dismissing complaint). In the instant case, plaintiff
alleges that, "[i]n the night between March 7th and 8th,
2016, the Lord god of host Jehovah sent the messenger
said to servant (Plaintiff) through the angel: 'Secret
gang organization."' Compl. [ECF No. 1] at 4
(emphasis in original) (omitting footnote and Chinese
language). Plaintiff asserts, among other things, that
the "Lord god of host sent the messenger through angel
said to spiritual Adam: 'take him (her) to the law to
confront it."' Id. at 3-4 (emphasis in original)
(omitting Chinese language). Plaintiff also quotes from
the Book of Revelations, id. at 4-5 (quoting Revelations
17:1-10), and the Doctrine and Covenants of the
Church of the Latter-Day Saints, id. at 6-7(quoting
The Doctrine and Covenants § 42, LDS.org,
https://www.lds.org/scriptures/dc- testament/dc/42 .22).
In these quotations, the complaint lists the names of
various former presidents and other officials as "kings,"
including a note that "the Lord god of host sent the
messenger said to servant in heart, 'They are like
this in their previous life."' Id. at 5 (emphasis in
original). Plaintiff requests a "[t]rial with god's law"
with a "jury to prevent insult and unfair behavior," as
well as a Mandarin Chinese court interpreter. Id. at 7.
Defendants move to dismiss the complaint for failure
to state a claim under Federal Rule of Civil Procedure
12(b)(6), as well as for lack of subject-matter
jurisdiction under Rule 12(b)(1). Defs.' Mot. to Dismiss

D15
P1.'s Compl. [ECF No. 6] at 1.
LEGAL STANDARD
At the motion-to-dismiss stage, a court must "treat
the complaint's factual allegations as true and grant
plaintiff 'the benefit of all inferences that can be
derived from the facts alleged."' Elec. Privacy Info. Ctr.
v. IRS, 261 F. Supp. 3d 1, 5 (D.D.C. 2017) (citing
Sparrow v. United Air Lines, Inc., 216 F.3d 1111, 1113
(D.C. Cir. 2000)). "The sole exception to this rule lies
with allegations that are sufficiently fantastic to defy
reality as we know it: claims about little green men, or
the plaintiffs recent trip to Pluto, or experiences in
time travel." Ashcroft v. Iqbal, 556 U.S. 662, 696 (2009)
(Souter, J., dissenting). On a Rule 12(b)(1) motion to
dismiss for lack of subject-matter jurisdiction, courts
may dismiss complaints which are "'patently
insubstantial,' presenting no federal question suitable
for decision." Tooley v. Napolitano, 586 F.3d 1006, 1009
(D.C. Cir. 2009) (citation omitted). On a Rule 12(b)(6)
motion to dismiss for failure to state a claim, a
complaint "must contain sufficient factual matter,
accepted as true, to 'state a claim to relief that is
plausible on its face."' Iqbal, 556 U.S. at 678 (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
ANALYSIS
Because federal courts are courts of limited
jurisdiction, "even a pro se plaintiff bears the burden of
establishing that the Court has subject matter
jurisdiction." Newby v. Obama, 681 F. Supp. 2d. 53, 55
(D.D.C. 2010) (citation omitted) (dismissing case for

D16
lack of subject-matter jurisdiction because it appeared
to be "the sort of 'bizarre conspiracy theory' that
warrant[s] dismissal under Rule 12(b)(1)"). The
standard for this kind of dismissal is high: the claims
must "be flimsier than 'doubtful or questionable'—they
must be 'essentially fictitious."' Best v. Kelly, 39 F.3d
328, 330 (D.C. Cir. 1994) (quoting Hagans v. Lavine,
415 U.S. 528, 537-38 (1974)) (finding that the claims of
pro se prisoners who asserted that the prison had
violated their constitutional rights were not "patently
insubstantial," but noted that "any sort of
supernatural intervention" would meet the standard
for Rule 12(b)(1) dismissal).
In the instant case, Plaintiff claims that a divine
messenger provided inspiration for the suit. Compl. at
4. This is similar to other "patently insubstantial"
claims meriting dismissal under Rule 12(b)(1). See, e.g.,
Odemns v. Wal-Mart Stores, Inc., 14-cv-1790 (KBJ),
2015 WL 2120634, at *2 (D.D.C. May 6, 2015)
(dismissing as "patently insubstantial" claim "that
defendants have implanted a 'multifunctional'
nano-chip that acts as 'a recorder' and a 'transmitter'
in order to 'record Plaintiffs thoughts"); In re New
York ex rel. Unger, 990 F. Supp. 2d 6, 6 (D.D.C. 2013)
(dismissing as frivolous a case where plaintiff sought
relief for "an ongoing state of insurrection and judicial
anarchy directed against the supreme court for the
fourth judicial district of New York"); Baszak v. FBI,
816 F. Supp. 2d 66, 69 (D.D.C. 2011) (dismissing as
patently insubstantial claims of "video and mental
surveillance"). Plaintiffs claims here are "patently
insubstantial," and defendants' motion to dismiss for
lack of subject-matter jurisdiction will therefore be

D17
granted.
Although courts must construe the complaints of
pro se plaintiffs "liberally," a plaintiffs "pro se status
does not render him immune from pleading facts upon
which a valid claim can rest." In re Watson, 910 F.
Supp. 2d 142, 148 (D.D.C. 2012) (citation omitted); see
Hamilton v. Acosta, 688 F. App'x 16, 17 (D.C. Cir. 2017)
(unpublished) (holding that, "[e]ven if construed
liberally, appellant's pro se complaint [did] not assert a
colorable . . . claim"). Even after a liberal construction
and careful examination of plaintiffs complaint, this
Court is unable to identify any colorable claims. See
Urban v. United Nations, 768 F.2d 1497, 1499 (D.C.
Cir. 1985) ("[T]he court is unable to hazard even the
most elementary guess as to the relief [plaintiff] seeks,
at a loss to decipher the nature of the claims pursued,
and unable to discern a plausible nexus between the
complaint and the named defendants.").
As the Eastern District of New York noted in Xiu
Jian Sun v. New York Office of the Attorney General, a
case brought by plaintiff, "th[is] plaintiff has made a
practice of suing any judge, court personnel,
government official, or person with whom he has ever
interacted. In pronouncements." 2017 WL 4740811, at
*2. This complaint seems to follow the same pattern,
naming as defendants multiple current and former
Department of Justice employees, judges and clerks at
the Court of Federal Claims and Federal Circuit,
current Supreme Court employees, and the addition,
the allegations consist . . . of religious former Acting
Solicitor General of the United States. As in plaintiffs
prior cases, he has not asserted any causes of action or

D18
sought any specific relief other than the appointment
of an interpreter for court appearances. Compl. at 7;
see Xiu Jian Sun v. Asiello, No. 1:17-cv-63, 2017 WL
4350566, at *2 (N.D.N.Y. July 17, 2017) ("Plaintiff has
not stated a claim, much less a claim upon which relief
could be granted."). Because plaintiff has once again
not stated a claim upon which relief can be granted,
defendants' motion to dismiss will be granted.
CONCLUSION
For these reasons, defendants' motion to dismiss
will be granted and this case dismissed with prejudice.
A separate order has been issued on this date.
Is/
JOHN D. BATES
United States District Judge
Dated: September 24, 2018

D19
Case 1:18-cv-02820-RC Document 5-2
Filed 03/20/19 Page 1 of 1
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA

THE CHURCH OF JESUS CHRIST
OF LATTER-DAY SAINTS, et al.,
Plaintiff,
v.
DONALD JOHN TRUMP - Cain,
Defendant.

Civil Action No.
18-2820 (RC)

ORDER
Upon Consideration of the Motion to Dismiss filed
by the United States, as well as the supporting
memorandum of points and authorities, and the entire
record herein, it is hereby
ORDERED, that the motion is GRANTED, and it
is further
ORDERED, that based on the reasons articulated
in an accompanying memorandum opinion, Plaintiffs
complaint is dismissed in its entirety, with prejudice.
It is SO ORDERED this

day of

, 2019.

RUDOLPH CONTRERAS
United States District Judge

D20
Case 1:18-cv-02820-RC Document 7
Filed 04/15/19 Page 1 of 5
USCA Case #19-5197 Document #1800909
Filed: 08/02/2019 Page 45 of 65
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

THE CHURCH OF JESUS CHRIST
OF LATTER-DAY SAINTS, SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM.
Plaintiffs,
Civil Action No.
v.
18-cv-2820 (RC)
PRESIDENT OF U.S.A. MR.
DONALD JOHN TRUMP — Cain
Defendant
Leaven of Pharisees
AfMMIW
On the date of April 01, 2019, when looking at the
letter sent by the Rudolph Contreras (Pharisees), the
Lord god of host Jehovah makes sound from the God's
temple and says: "Leaven of Pharisees." (aftlAtign).
Dated: April 08, 2019
Queens, New York
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
Xiu Jian Sun, the spiritual Adam
54-25 153rd St

D21
Flushing, NY 11355
646-675-0308
Plaintiffs
To: Patricia King Mcbride
U.S. Attorney's Office for the District of Columbia
Assistant United States Attorney
555 4th St., N.W.
Washington, DC 20530
(202) 252-7123
patricia.mcbride@usdoj.gov
Counsel for Defendant

D22
Case 1:18-cv-02820-RC Document 6
Filed 03/20/19 Page 1 of 2
Case 1:18-cv-02820-RC Document 7
Filed 04/15/19 Page 2 of 5
USCA Case #19-5197 Document #1800909
Filed: 08/02/2019 Page 46 of 65
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
CHURCH OF JESUS CHRIST
OF LATTER-DAY SAINTS,
Civil Action No.
Plaintiff,
18-2820 (RC)
v.
Re Document No.: 5
DONALD J. TRUMP,
Defendant.
ORDER
On March 20, 2019, Defendant Donald J. Trump
filed a motion to dismiss. See ECF No. 5. Plaintiff Xiu
Jian Sun, who is proceeding pro se, would normally be
required to file his response within fourteen days.
See Fed. R. Civ. P. 6(a)(1), (d); D.D.C. Civ. R. 7(b).
But given Plaintiffs pro se status, the Court will grant
him additional time to respond.
Under Local Civil Rule 7(b), if any party fails to file
a response to a motion within the prescribed time, "the
Court may treat the motion as conceded." Id. In Fox v.
Strickland, 837 F.2d 507 (D.C. Cir. 1988) (per curiam),
the D.C. Circuit held that a district court must take

D23
pains to advise a pro se party of the consequences of
the failure to respond to a dispositive motion. See also
Neal v. Kelly, 963 F.2d 453, 456 (D.C. Cir. 1992).
"That notice . . . should include an explanation that the
failure to respond . . . may result in the district court
granting the motion and dismissing the case." Fox,
837 F.2d at 509. The Court hereby advises Plaintiff of
his obligations under the Federal Rules of Civil
Procedure and the Local Civil Rules. If he fails to
submit a memorandum responding to Defendant's
motion, the Court may treat the motion as conceded,
grant the motion, and dismiss his case. If Plaintiff
complies with his obligations under the Federal and
Local Rules, he is advised that when the Court rules on
Defendant's motion, the Court will take into
consideration the facts proffered in the complaint,
along with any response or opposition to Defendant's
motion.
Accordingly, it is hereby ORDERED that the
plaintiff shall respond to the defendant's motion to
dismiss on or before April 19, 2019. If the plaintiff
neither responds nor moves for an extension of time by
that date, the Court may treat the motion as conceded
and dismiss the plaintiffs complaint.
SO ORDERED.
Dated: March 20, 2019
RUDOLPH CONTRERAS
United States District Judge

D24
AFFIDAVIT OF MAILING
I hereby certify under penalty of perjury that on
this 08th day of April, 2019, I caused to be placed in
the United States mail (first-class postage paid), copies
of a "Leaven of Pharisees (51fiji?gt%)" address as
follows:
To: Patricia King McBride
U.S. Attorney Civil Process Clerk
Assistant United States Attorney
555 Fourth Street, N.W.,
Washington, DC 20530
President of U.S.A.
Mr. Donald John Trump - Cain
The White House
1600 Pennsylvania Avenue NW,
1st Floor, West Wing
Washington, DC 20500
U. S. Attorney General
U. S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Clerk's Office
U.S. District Court for the District of Columbia
333 Constitution Avenue, NW,
Washington, DC 20001
Rudolph Contreras
U.S. District Court for the District of Columbia
333 Constitution Avenue, NW,
Washington, DC 20001
Dated: April 08, 2019

Simon Chen

D25
Case 1:18-cv-02820-RC Document 9
Filed 06/28/19 Page 1 of 2
USCA Case #19-5197 Document #1796369
Filed: 07/09/2019 Page 3 of 9
USCA Case #19-5197 Document #1800909
Filed: 08/02/2019 Page 55 of 65
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

THE CHURCH OF JESUS CHRIST
OF LATTER-DAY SAINTS, SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM.
Plaintiffs,
Civil Action No.
v.
18-cv-2820 (RC)
PRESIDENT OF U.S.A. MR.
DONALD JOHN TRUMP — Cain
Defendant

NOTICE OF APPEAL
Notice is hereby given that Xiu Jian Sun, the
spiritual Adam (plaintiff) in the above named case, *
hereby appeal to the United States Court of Appeals
for the District of Columbia Circuit, (from the final
judgment) (from the order (describing it)) entered in
this action on the 6 day of May, 2019.
Dated: June 22, 2019
Queens, New York
The Church of Jesus Christ of Latter-day saints

D26
Servant: Xiu Jian Sun, the spiritual Adam
Xiu Jian Sun, the spiritual Adam
54-25 153rd St
Flushing, NY 11355
646-675-0308
Plaintiffs
AFFIDAVIT OF MAILING
I hereby certify under penalty of perjury that on
this 24th day of June, 2019, I caused to be placed in the
United States mail (first-class postage paid), copies of a
"Notice of Appeal" address as follows:
To: Patricia K. McBride
U.S. ATTORNEY'S OFFICE FOR
THE DISTRICT OF COLUMBIA
555 Fourth Street, NW
Washington, DC 20530
President of U.S.A.
Mr. Donald John Trump - Cain
The White House
1600 Pennsylvania Avenue NW,
1st Floor, West Wing
Washington, DC 20500
U. S. Attorney General
U. S. Department of Justice
950 Pennsylvania Avenue, NW.
Washington, DC 20530-0001
Dated: June 24, 2019
Queens, New York
Simon Chen

D27
Case 1:18-cv-02820-RC Document 8
Filed 05/06/19 Page 1 of 5
USCA Case #19-5197 Document #1796369
Filed: 07/09/2019 Page 5 of 9
USCA Case #19-5197
Document #1800909
Filed: 08/02/2019 Page 61 of 65
USCA Case #19-5197 Document #1804406
Filed: 08/30/2019 Page 1 of 5
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
CHURCH OF JESUS CHRIST
OF LATTER-DAY SAINTS, et al.,
Plaintiffs,
v.
Civil Action No.: 18-2820 (RC)
DONALD J. TRUMP,
Re Document No.: 5
Defendant.
MEMORANDUM OPINION AND ORDER
GRANTING DEFENDANT'S MOTION TO DISMISS
I. INTRODUCTION
Plaintiff Xiu Jian Sun, identifying as "The
Spiritual Adam," and as a representative of the Church
of Jesus Christ of Latter-Day Saints, filed this action
pro se for trial with God's law against Defendant
President Donald John Trump on November 26, 2018.
President Trump has now moved to dismiss the case,
arguing that the Court lacks jurisdiction to hear Sun's
claims and that Sun's complaint fails to state a claim

D28
upon which relief can be granted. As detailed below,
the Court grants the motion to dismiss.
IL BACKGROUND
Sun is a serial complainant who has filed
numerous suits in other federal and state courts over
the past few years. See, e.g., Sun v. Secret Gang Org.:
OBAMA BARACK-Dog, No. 171861, 2018 WL 4567164,
at *1—*3 (D.D.C. Sept. 24, 2018) (dismissing complaint
because Sun "ha[d] not asserted any causes of action"
or "stated a claim upon which relief can be granted");
Order Granting Motion to Dismiss, Church of Jesus
Christ of Latter-Day Saints v. Trump, No. 17-cv-1787
(D.D.C. Dec. 13, 2017), ECF No. 6 (dismissing
complaint for failure to comply with pleading
requirements); Sun v. N.Y. Office of Att'y Gen., No.
17-CV-5916, 2017 WL 4740811, at *1—*3 (E.D.N.Y. Oct.
19, 2017) (dismissing complaint as frivolous and
detailing similar cases filed by Sun in state and federal
courts); Sun v. United States, 130 Fed. Cl. 569,
569-570 (2016) (dismissing complaint because there
was "no plausible cause of action"). Sun's complaint in
this case makes a litany of mostly nonsensical religious
allegations, quoting from "The Doctrine and Covenants"
and "The Revelation of St. John the Divine," Compl. at
2-4, ECF No. 1., and requesting "Nrial with god's law"
and a jury "to prevent insult and unfair behavior," id.
at 5. On March 20, 2019, President Trump moved to
dismiss the complaint for lack of subject matter
jurisdiction and failure to state a claim. See Def.'s

D29
Mem. Supp. Mot. Dismiss 1, ECF No. 5. In response,
Sun offered only an additional religious message. See
Pl.'s Civil Statement, ECF No. 7.
III. ANALYSIS
President Trump moves to dismiss this case for
lack of subject matter jurisdiction under Rule 12(b)(1)
and for failure to state a claim under Rule 12(b)(6).
See Def.'s Mem. Supp. 1. Because Sun's complaint is
unintelligible, the Court grants the motion.
A. The Court Lacks Subject Matter Jurisdiction
Over This Case
First, because Sun's complaint is patently
insubstantial, the Court lacks subject matter
jurisdiction over this case. "While complaints filed by
pro se litigants are held to less stringent standards
than those applied to formal pleadings drafted by
lawyers," pro se plaintiffs retain the burden to
establish that the Court has subject matter
jurisdiction over their case. Newby v. Obama, 681 F.
Supp. 2d 53, 55 (D.D.C. 2010). And, as relevant here,
"a court may dismiss a case . . . for lack of subject
matter jurisdiction if a complaint is 'patently
insubstantial' and thus `present[s] no federal question
suitable for decision.' Yi Tai Shao v. Roberts, No.
18-1233, 2019 WL 249855, at *15 (D.D.C. Jan. 17, 2019)
(second alteration in original) (quoting Vasaturo v.
Peterka, 203 F. Supp. 3d 42, 44 (D.D.C. 2016)).

D30
"Declining to hear a claim because it is patently
insubstantial is 'reserved for complaints resting on
truly fanciful factual allegations,' while 'legally
deficient complaints' are still reserved for 12(b)(6)
dismissals." Id. (quoting Vasaturo, 203 F. Supp. 3d at
44). "Thus, to meet this standard, 'claims [must] be
flimsier than doubtful or questionable—they must be
essentially fictitious."' Id. (alteration in original,
internal quotation marks omitted) (quoting Vasaturo,
203 F. Supp. 3d at 44). lE]ssentially fictitious' claims
include 'bizarre conspiracy theories, any fantastic
government manipulations of [the] will or mind, [and]
'any sort of supernatural intervention."' Id. (alterations
in original) (quoting Vasaturo, 203 F. Supp. 3d at 44).
Here, Sun's complaint is replete with disconnected
and mostly incoherent religious messages, including
allegations of supernatural intervention. E.g. Compl.
at 1 ("Jehovah, the Lord god of the host, sent the
messenger answered the defendant President of U.S.A.
MR. Donald John Trump . . . ."); Compl. at 3 (alleging
that "President Donald John Trump . . . and the
inhabitants of the earth have been made drunk with
the wine of [Babylon the Great]"). This is the type of
"patently insubstantial" claim that warrants dismissal
under Rule 12(b)(1). See, e.g., Best v. Kelly, 39 F.3d
328, 330 (D.C. Cir. 1994) (noting that claims alleging
"any sort of supernatural intervention" could be
dismissed as patently insubstantial). The Court
accordingly grants President Trump's motion to

D31
dismiss for lack of subject matter jurisdiction.
A. Sun's Complaint Fails to State a Claim
Even if the Court had subject matter jurisdiction
over this case, it would still grant the motion to dismiss
because the complaint fails to state a claim. To
survive a motion to dismiss for failure to state a claim
under Rule 12(b)(6), "a complaint must contain
sufficient factual matter, accepted as true, to 'state a
claim to relief that is plausible on its face.'" Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atlantic
Corp. v. Twombly, 550 U.S 544, 570 (2007)). When
deciding a motion to dismiss, "the Court must . . . 'treat
the complaint's factual allegations as true and must
grant plaintiff the benefit of all inferences that can be
derived from the facts alleged."' Elec. Privacy Info.
Ctr. v. IRS, 261 F. Supp. 3d 1, 5 (D.D.C. 2017) (internal
quotation marks omitted) (quoting Sparrow v. United
Air Lines, Inc., 216 F.3d 1111, 1113 (D.C. Cir. 2000)).
But "a plaintiff must put forth 'factual content that
allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged."' Id.
(quoting Iqbal, 556 U.S. at 678).
Here, even assuming that the Court had subject
matter jurisdiction over this case, it would dismiss it
for failure to state a claim. While "[a] document filed
pro se is 'to be liberally construed' and 'a pro se
complaint . must be held to less stringent standards
than formal pleadings drafted by lawyers,' Erickson v.

D32
Pardus, 551 U.S. 89, 94 (2007) (per curiam) (internal
citation omitted) (quoting Estelle v. Gamble, 429 U.S.
97, 106 (1976)), "pro se status does not render [a
plaintiff] immune from pleading facts upon which a
valid claim can rest," In re Watson, 910 F. Supp. 2d
142, 148 (D.D.C. 2012) (quoting Watson v. United
States, No. 06:716C, 2007 WL 5171595, at *3 (Fed. Cl.
Jan. 26, 2007)). And after a thorough examination and
liberal construction of Sun's complaint, the Court is
unable to discern any plausible or colorable cause of
action. Indeed, Sun "has not asserted any causes of
action or sought any specific relief, " Sun, 2018 WL
4567164, at *3, beyond his requests for "[t]rial with
god's law," a jury trial, and the appointment of an
interpreter, Compl. at 5. Because the Court is left
without a discernible cause of action, it must dismiss
this case for failure to state a claim.
IV. CONCLUSION AND ORDER
For the foregoing reasons, Defendant's Motion to
Dismiss is GRANTED.
SO ORDERED.
Dated: May 6, 2019
RUDOLPH CONTRERAS
United States District Judge

El
Appendix E
USCA Case #19-5197 Document #1801289
Filed: 08/08/2019 Page 1 of 3
UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5197 (C.A. No. 18-2820)
XIU JIAN SUN, The Spiritual Adam,
Appellant,
CHURCH F JESUS CHRIST
OF LATTER-DAY SAINTS,
Appellee,
v.
DONALD J. TRUMP, President of the United States,
Appellee.
FEDERAL APPELLEE'S CERTIFICATE OF
COUNSEL AS
TO PARTIES, RULINGS, AND RELATED CASES
Pursuant to this Court's July 9, 2019, Order and
Circuit Rule 28(a)(1), counsel for federal Appellee files
this certificate as to parties, rulings, and related cases.
I. Parties
The Appellant is Xiu Jian Sun, The Spiritual Adam,
who was the Plaintiff in the District Court. The
Appellee is the Church of Jesus Christ of Latter-Day
Saints, who was also a Plaintiff in the District Court.
The federal Appellee is Donald J. trump, President of

E2
the United States of America, who was also the
federalDefendnat in the District Court. There was no
amicus curiae.
II. Rulings Under Review
At issue in this appeal are the May 6, 2019 Order
and Memorandum Opinion by the Honorable Judge
Rudolph Contreras granting the federal Defendant's
Motion to Dismiss..
III. Related Cases
This case has not previously been before this Court.
There are currently two pending related cases in the
District court as Case Nos. 1:17-cv-01787-RC and 1:18
cv-00254-ABJ.
JESSIE K. LIU
United States Attorney.
R. CRAIG LAWRENCE
Assistant United States Attorney
/s/ Patricia K. McBride
PATRICIA K. McBRIDE
Assistant United States Attorney
555 Fourth Street, N.W.
Washington, D.C. 20530
(202) 252-7123
Patricia.mcbride@usdoj.gov

E3
USCA Case #19-5197 Document #1801289
Filed: 08/08/2019 Page 3 of 3
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 8th day of
August, 2019, the foregoing Appellee's Certificate of
Counsel as to Parties, Rulings, and Related Cases and
Entry of Appearance have been served by the postal
service, postage pre-paid and addressed as follows:

XIU JIAN SUN
54-25 153rd Street
Flushing, NY 11355
PRO SE

/s/ Patricia K. McBride
PATRICIA K. McBRIDE
Assistant United States Attorney
555 Fourth Street, N.W.
Washington, D.C. 20530
(202) 252-7123
Patricia.mcbride@usdoj.gov

E4
USCA Case #19-5197 Document #1801298
Filed: 08/08/2019 Page 1 of 1
UNITED STATES COURT OF APPEALS
DISTRICT OF COLUMBIA CIRCUIT
333 Constitution Avenue, NW Washington, DC 200012866 Phone: 202-216-7000 I Facsimile: 202-219-8530
Case No: 19-5197
Case Caption: Xiu Jian Sun, The Spiritual Adam and Chu
v.
Donald J. Trump, President of U.S.A.
ENTRY OF APPEARANCE
Party Information
The Clerk shall enter my appearance as counsel for the
following parties: (List each party represented individually.
Use an additional blank sheet as necessary)
Appellant(s)/Petitioner(s) x Appellee(s)/Respondent(s)
Intervenor(s)
Amicus Curiae
Donald J. Trump, President of the United States
Counsel Information
Lead Counsel: Patricia McBride, Assistant United
States Attorney
Direct Phone: 202-252-7123, Fax: 202-252-2599
Email: patricia.mcbride@usdoj.gov
2nd Counsel: R. Craig Lawrence, Assistant United
States Attorney
Direct Phone: 202-252-2543, Fax: 202-252-2599
Email: craig.lawrence@usdoj.gov
Firm Name: United States Attorney's Office - District
of Columbia
Firm Address: 555 Fourth Street, N.W., Washington,
D.C. 20530
Firm Phone: 202-252-2563, Fax: 202-252-2599

E5
USCA Case #19-5197 Document #1804405
Filed: 08/30/2019 Page 1 of 3
UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
19-5197 (C.A. No. 18-2820)
XIU JIAN SUN, et al,
v.
DONALD J. TRUMP,

Appellants,
Appellee.

APPELLEE'S MOTION FOR LEAVE TO FILE
MOTION FOR SUMMARY AFFIRMANCE
Appellee, Donald J. Trump respectfully moves for
leave to file the accompanying motion for Summary
Affirmance of the Honorable Rudolph Contreras' May 6,
2019 Memorandum Opinion granting Appellee's
Motion to Dismiss.
Counsel for Appellee erroneously calendared the
due date for filing a dispositive motion and missed the
filing deadline. Counsel apologizes for the error.
Nevertheless, counsel believes, based on the record,
that this appeal is appropriate for summary
disposition and requests leave to file the attached
Motion for Summary Affirmance. Counsel did not
contact Appellant pro se, to determine Appellants'
position on this motion.
WHEREFORE, Appellee respectfully requests the
Motion be granted and Appellee's Motion for Summary
Affirmance be accepted for filing.

E6
JESSIE K. LIU
United States Attorney
/s/
R. CRAIG LAWRENCE
Assistant United States Attorney
555 Fourth Street, N.W.

USCA Case #19-5197 Document #1804405
Filed: 08/30/2019 Page 3 of 3
CERTIFICATE OF COMPLIANCE WITH
TYPE-VOLUME LIMITATION
I hereby certify that the foregoing motion contains
261 words with 14 point font size in Times New Roman
style.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 30th day of
August, 2019, the foregoing Motion for Leave to File
Motion for Summary Affirmance has been served by
the postal service, postage pre-paid and addressed as
follows:
XIU JIAN SUN
54-25 153rd Street Second Floor
Flushing, NY 11355
/s/ R. Craig Lawrence
Assistant United States Attorney
Judiciary Center Building
555 Fourth Street, N.W.
Washington, D.C. 20530
(202) 252-2543

E7
USCA Case #19-5197

Document #1804406
Filed: 08/30/2019 Page 1 of 5

UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
19-5197 (C.A. No. 18-2820)
XIU JIAN SUN, et al,
v.
DONALD J. TRUMP,

Appellants,
Appellee.

APPELLEE'S MOTION FOR SUMMARY
AFFIRMANCE
Appellee, Donald J. Trump respectfully moves for
Summary Affirmance of the Honorable Rudolph
Contreras' May 6, 2019 Memorandum Opinion
granting Appellee's Motion to Dismiss. R. 8. The
District Court correctly dismissed this case for lack of
subject matter jurisdiction and failure to state a claim.
Id.at 1-2.
Summary disposition is appropriate in this case
because the "merits of this appeal are so clear as to
make summary affirmance proper." Walker v.
Washington, 627 F. 2d 541, 545 (D.C. Cir. 1980), cert.
denied, 449 U.S. 994 (1980); accord Ambach v. Bell,
686 F.2d 974, 979 (D.C. Cir. 1982). "[N]o benefit will
be gained from further briefing and argument of the
issues presented." Taxpayers Watchdog, Inc. v. Stanley,
819 F. 2d 294, 297-298 (D.C. Cir. 1987). None of the
claims advanced by Sun raise any doubt that the
District Court correctly dismissed this action.

E8
BACKGROUND
Appellant, pro se, Xiu Jian Sun, identifying as "The
Spiritual Adam" and as a representative of the Church
of Jesus Christ of Latter-Day Saints, filed this action
against President Donald J. Trump on November 26,
2018. R. 1. Noting that Appellant is a frequent filer,
and has filed a number of cases in other federal and
state courts, the District Court explained "Sun's
complaint in this case makes a litany of mostly
nonsensical religious allegations, quoting from The
Doctrine and Covenants' and 'the Revelation of St.
John the Devine,' [ ] and requesting It]rial with god's
law' and a jury 'to prevent insult and unfair behavior."'
R. 8 at 1-2.
Analyzing Appellant's complaint, the District
Court observed that it was laden with "disconnected"
and incomprehensible religious themes and claims of
"supernatural intervention." Id. at 3. Citing Best v.
Kelly, 39 F. 3d 328,330 (D.C. Cir. 1994), the District
Court, therefore, granted the motion to dismiss for lack
of subject matter jurisdiction. Id. Discerning no
plausible or colorable cause of action, the District also
concluded that the complaint failed to state a claim
and should be dismissed for that reason as well. Id. at
4.
ANALYSIS
1. The District Court Correctly Held That It
Lacked Subject Matter Jurisdiction.
When claims in a complaint are "patently
insubstantial," as here, this Court has recognized that
the may be dismissed for lack of jurisdiction. Best, 39

E9
F. 3d at 330, accord Tooley v. Napolitano, 586 F.3d
1006, 1009 (D.C. Cir. 2009). Here, Appellant's
complaint articulates apparently religious messages
and lacks any legal or factual argument relating to a
possible legal cause of action, a violation of the
Constitution, or violation of a statute or any
entitlement to legal relief. Consequently, the District
Court properly dismissed the complaint for lack of
jurisdiction, and the judgment is so clearly correct that
it should be summarily affirmed.
2. The District Court Correctly Held That The
Complaint Failed To State A Claim.
To avoid dismissal for failure to state a claim upon
which relief can be granted under Rule 12(b)(6) "a
complaint must contain sufficient factual matter,
accepted as true, to 'state a claim to relief that is
plausible on its face."' E.g. Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). Appellant's
complaint fails to satisfy the standard.
The complaint pleaded no facts that related to any
legal action. (R. 1). Although the complaint sought a
jury trial (R. 1 at 5), it asserted no discernable causes
of action nor identified any legal relief that Appellant
was seeking. (R.1). Based on these failings the District
Court further concluded that the complaint failed to
state a claim and should be dismissed for that reason
as well. (R. 8 at 4). This judgment, too, is so clearly
correct that it should be summarily affirmed.
CONCLUSION
The District Court correctly dismissed this action.

E10
The District Court's decision is so clearly correct that it
should be summarily affirmed.
JESSIE K. LIU
United States Attorney
/s/
R. CRAIG LAWRENCE
Assistant United States Attorney
555 Fourth Street, N.W.
CERTIFICATE OF COMPLIANCE WITH
TYPE-VOLUME LIMITATION
I hereby certify that the foregoing motion contains 779
words with 14 point font size in Times New Roman
style.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 30th day of
August, 2019, the foregoing Motion for Summary
Affirmance has been served by the postal service,
postage pre-paid and addressed as follows:
XIU JIAN SUN
54-25 153rd Street, Second Floor
Flushing, NY 11355
/s/ R. Craig Lawrence
Assistant United States Attorney
Judiciary Center Building
555 Fourth Street, N.W.
Washington, D.C. 20530
(202) 252-2543

Fl
Appendix F
USCA Case #19-5197 Document #1806128
Filed: 09/11/2019 Page 1 of 1
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5197

September Term, 2019
1:18-cv-02820-RC
Filed On: September 11, 2019 [1806128]
Xiu Jian Sun, The Spiritual Adam,
Appellant
Church of Jesus Christ of Latter-day Saints,
Appellee
v.
Donald J. Trump, President of U.S.A., Mr.,
Appellee
ORDER
Upon consideration of appellee Donald J. Trump's
motion for leave to file the motion for summary
affirmance, it is
ORDERED that the motion for leave to file be
granted. The Clerk is directed to file the lodged
motion for summary affirmance. It is
FURTHER ORDERED that appellant file a

F2

response to appellee's motion for summary affirmance
by September 26, 2019.
The Clerk is directed to send a copy of this order to
appellant both by certified mail, return receipt
requested, and by first class mail.
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Rebecca L. Thompson
Deputy Clerk

